                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                          CLOSEOUT MEMORANDUM

Case Number: A14050022                                                                   Page 1 of 1




                 We received an allegation of self-plagiarism in two proposals. 1 We reviewed the
                                               2
         proposals and found that the Subject was a PI on both proposals, was proposing different work
         in each proposal, and had listed the earlier proposal as pending in his subsequent proposal's
         Current and Pending Support section. We determined the Subject committed no misconduct or
         violation of NSF policy. This case is closed with no further action taken.




NSF OIG Form 2 (11102)
